                                                                        CliftonLarsonAllen LLP
                                                                        www.cliftonlarsonallen.com




                            INDEPENDENT AUDITORS’ REPORT


Inspector General
Consumer Product Safety Commission

Chairman
Consumer Product Safety Commission

In our audit of the fiscal year (FY) 2013 financial statements of the U.S. Consumer Product
Safety Commission (Commission), we found:

      The financial statements are presented fairly, in all material respects, in accordance with
       accounting principles generally accepted in the United States of America (U.S.);
      One material weakness and no significant deficiencies in internal control over financial
       reporting; and
      One instance of reportable noncompliance with certain provisions of laws and
       regulations tested and one potential instance of reportable noncompliance.

The following sections and Exhibits discuss in more detail: (1) these conclusions, (2)
Management’s Discussion and Analysis (MD&A) and other information included with the
financial statements, (3) management’s responsibilities, (4) our responsibilities, (5)
management’s response to findings, and (6) the current status of prior year findings.

Report on the Financial Statements

We have audited the accompanying financial statements of the Commission, which comprise
the balance sheet as of September 30, 2013, and the related statements of net cost, changes in
net position, budgetary resources, and custodial activity for the year then ended, and the related
notes to the financial statements. The objective of our audits was to express an opinion on the
fairness of these financial statements.

Management’s Responsibility for the Financial Statements

Commission management is responsible for the (1) preparation and fair presentation of these
financial statements in accordance with accounting principles generally accepted in the U.S., (2)
preparation, measurement, and presentation of the required supplementary Information (RSI) in
accordance with accounting principles generally accepted in the U.S., (3) preparation and
presentation of other information in documents containing the audited financial statements and
auditors’ report, and consistency of that information with the audited financial statements and
the RSI; (4) design, implementation, and maintenance of internal control relevant to the
preparation and fair presentation of financial statements that are free from material
misstatement, whether due to fraud or error.
                    INDEPENDENT AUDITORS’ REPORT (Continued)

Auditors’ Responsibility

Our responsibility is to express an opinion on these financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the U.S.
and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain reasonable assurance about whether the financial statements
are free from material misstatement. We also conducted our audits in accordance with Office of
Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial
Statements (OMB Bulletin 14-02).

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the financial statements. The procedures selected depend on the auditors’
judgment, including the assessment of the risks of material misstatement of the financial
statements, whether due to fraud or error. In making those risk assessments, the auditor
considers internal control relevant to the entity’s preparation and fair presentation of the
financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the
entity’s internal control. Accordingly, we express no such opinion. An audit also includes
evaluating the appropriateness of accounting policies used and the reasonableness of
significant accounting estimates made by management, as well as evaluating the overall
presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.

Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the U.S. Consumer Product Safety Commission as of September 30,
2013, and its net costs, changes in net position, budgetary resources, and custodial activity for
the year then ended, in accordance with accounting principles generally accepted in the U.S.

Other Matters

2012 Financial Statements
The FY 2012 financial statements were audited by other auditors whose report dated November
16, 2012, expressed an unmodified opinion on those statements. As discussed in Note 15 to the
financial statements, errors resulting from not capitalizing and amortizing leasehold
improvements were discovered by management during the current year. Accordingly, amounts
reported for property and equipment and amortization have been restated in the FY 2012
financial statements, and an adjustment has been made to cumulative results of operations as
of September 30, 2011. The other auditors reported on the FY 2012 financial statements before
the restatement.

As part of our audit of the FY 2013 financial statements, we also audited adjustments described
in Note 15 that were applied to restate the FY 2012 financial statements. In our opinion, such
adjustments are appropriate and have been properly applied. We were not engaged to audit,
review, or apply any procedures to the FY 2012 financial statements of the Commission other
than with respect to the adjustments and, accordingly, we do not express an opinion or any
other form of assurance on the FY 2012 financial statements as a whole.
                   INDEPENDENT AUDITORS’ REPORT (Continued)

Required Supplementary Information
Accounting principles generally accepted in the U.S. require that the Commission’s MD&A be
presented to supplement the financial statements. Such information, although not a part of the
financial statements, is required by FASAB, who considers it to be an essential part of financial
reporting for placing the financial statements in an appropriate operational, economic, or
historical context. We have applied certain limited procedures to the MD&A in accordance with
auditing standards generally accepted in the U.S., which consisted of inquiries of management
about the methods of preparing the information and comparing the information for consistency
with management's responses to our inquiries, the financial statements, and other knowledge
we obtained during our audit of the financial statements. We do not express an opinion or
provide any assurance on the MD&A because the limited procedures we applied do not provide
sufficient evidence to express an opinion or provide any assurance.

Other Information
The Message from the Chairman on page i, and other accompanying information on pages 43
to 50, contain a wide range of information, some of which is not directly related to the financial
statements. This information is presented for purposes of additional analysis and is not a
required part of the financial statements. The Message from the Chairman and other
accompanying information has not been subjected to the auditing procedures applied in the
audit of the financial statements, and accordingly, we do not express an opinion or provide any
assurance on it.  

Report on Internal Control over Financial Reporting and on Compliance and Other
Matters Based on an Audit of Financial Statements Performed in Accordance with
Government Auditing Standards

Report on Internal Control over Financial Reporting

In planning and performing our audit of the financial statements, we considered the
Commission’s internal control over financial reporting (internal control) to determine the audit
procedures that are appropriate in the circumstances for the purpose of expressing our opinion
on the financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the Commission’s internal control or on management’s assertion on internal
control included in the MD&A. Accordingly, we do not express an opinion on the effectiveness of
the Commission’s internal control or on management’s assertion on internal control included in
the MD&A.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct, misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the Commission’s financial statements will not be
prevented, or detected and corrected on a timely basis. A significant deficiency is a deficiency,
or combination of deficiencies, in internal control that is less severe than a material weakness,
yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the preceding
paragraph and was not designed to identify all deficiencies in internal control that might be
material weaknesses or significant deficiencies and therefore, material weaknesses or
significant deficiencies may exist that were not identified. However, we identified certain
                   INDEPENDENT AUDITORS’ REPORT (Continued)

deficiencies in internal control, described below and in Exhibit A, that we consider to be a
material weakness.


             Prior Period Adjustment – Capitalization of Leasehold Improvements
       The Commission entered into a new lease for the facility that is known as 5-RP
       and made improvements to the property from FY 2009 to FY 2011. The
       Commission purchased approximately $19.2 million of leasehold improvements
       that were related to either build out construction of the facility or equipment that
       has become part of the facility. These disbursements were originally expensed
       when incurred instead of being recorded as capitalized assets.

       In addition, the tenant improvement allowance received from the new lease
       agreements as well as the leasehold improvements that were purchased through
       the use of the tenant improvement allowance in the amount of $2.7 million from
       FY 2009 to FY 2012 were not recorded.

       The Commission does not have policies and procedures in place for identifying
       and recording leasehold improvements, as well as accounting for tenant
       improvement allowances. During FY 2013, the Commission recorded the
       appropriate assets and adjustments to cumulative results of operations and
       posted a prior period adjustment which required the restatement of the FY 2012
       financial statements.


Report on Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Commission’s financial
statements are free from material misstatement, we performed tests of its compliance with
certain provisions of laws and regulations that have a direct effect on the determination of
material amounts and disclosures in the financial statements. However, providing an opinion on
compliance with those provisions was not an objective of our audit, and accordingly, we do not
express such an opinion. The results of our tests disclosed instances of noncompliance
described below and in Exhibit B that are required to be reported in accordance with
Government Auditing Standards, issued by the Comptroller General of the United States or
OMB Bulletin No. 14-02.
                    INDEPENDENT AUDITORS’ REPORT (Continued)

                            Non-Compliance with Anti-Deficiency Act

       In FY 2012, the Commission exceeded an appropriation limit on its Reception
       and Representation expenses. The Commission submitted the required Anti-
       Deficiency Act (ADA) letter to the Speaker of the House of Representatives, the
       Comptroller General of the United States, the President of United States Senate
       and the President of the United States on November 19, 2013.

       In FY 2013 the Commission’s Office of Inspector General disclosed in an
       investigative report that subsequent to FY 1996 employees working under
       telework status received reimbursement for telecommunication services without
       the proper certification of adequate safeguards against private misuse and
       without proper safeguards against private misuse. This has created a per se
       violation of the Purpose Act and a potential violation of the ADA. However, the
       Commission has not yet finalized its position regarding the ADA due to the
       existence of conflicting opinions from the DOJ’s Office of Legal Counsel and the
       Comptroller General of the United States as to whether the situation would
       qualify as a violation of the ADA.

Management’s Responsibilities for Internal Control and Compliance

Management is responsible for (1) evaluating the effectiveness of internal control over financial
reporting based on criteria established under the Federal Managers’ Financial Integrity Act
(FMFIA), (2) providing a statement of assurance on the overall effectiveness on internal control
over financial reporting, and (3) ensuring compliance with other applicable laws and regulations.

Auditors’ Responsibilities

We are responsible for: (1) obtaining a sufficient understanding of internal control over financial
reporting to plan the audit, (2) testing compliance with certain provisions of laws and regulations
that have a direct effect on the determination of material amounts and disclosures in the
financial statements and applicable laws for which OMB Bulletin 14-02 requires testing, and (3)
applying certain limited procedures with respect to the MD&A and all other information included
with the financial statements.

We did not evaluate all internal controls relevant to operating objectives as broadly established
by the FMFIA, such as those controls relevant to preparing statistical reports and ensuring
efficient operations. We limited our internal control testing to testing controls over financial
reporting. Because of inherent limitations in internal control, misstatements due to error or fraud,
losses, or noncompliance may nevertheless occur and not be detected. We also caution that
projecting our audit results to future periods is subject to risk that controls may become
inadequate because of changes in conditions or that the degree of compliance with controls
may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.

We did not test compliance with all laws and regulations applicable to the Commission. We
limited our tests of compliance to selected provisions of laws and regulations that have a direct
effect on the determination of material amounts and disclosures in the financial statements and
those required by OMB Bulletin 14-02 that we deemed applicable to the Commission’s financial
statements for the fiscal year ended September 30, 2013. We caution that noncompliance with
                   INDEPENDENT AUDITORS’ REPORT (Continued)

laws and regulations may occur and not be detected by these tests and that such testing may
not be sufficient for other purposes.

Management’s Response to Findings

Management’s response to the findings identified in our report is presented in Exhibit D. We did
not audit the Commission’s response and, accordingly, we express no opinion on it.

Status of Prior Year’s Control Deficiencies and Noncompliance Issues

We have reviewed the status of the Commission’s corrective actions with respect to the findings
included in the prior year’s Independent Auditors’ Report, dated November 16, 2012. The status
of prior year findings is presented in Exhibit C.

Purpose of the Report on Internal Control over Financial Reporting and the Report on
Compliance and Other Matters

The purpose of the Report on Internal Control over Financial Reporting and the Report on
Compliance sections of this report is solely to describe the scope of our testing of internal
control and compliance and the result of that testing, and not to provide an opinion on the
effectiveness of the Commission’s internal control or on compliance. These reports are an
integral part of an audit performed in accordance with Government Auditing Standards in
considering the Commission’s internal control and compliance. Accordingly, these reports are
not suitable for any other purpose.



a
Calverton, Maryland
December 13, 2013
                                         EXHIBIT A
                                      Material Weakness

           Prior Period Adjustment – Capitalization of Leasehold Improvements

The Commission entered into a new lease for the facility that is known as 5-RP and made
improvements to the property from FY 2009 to FY 2011. The Commission purchased
approximately $19.2 million of leasehold improvements that were related to either build out
construction of the facility or equipment that has become part of the facility. These
disbursements were originally expensed when incurred instead of being recorded as capitalized
assets.

In addition, the tenant improvement allowance received from the new lease agreements as well
as the leasehold improvements that were purchased through the use of the tenant improvement
allowance in the amount of $2.7 million from FY 2009 to FY 2012 were not recorded.

The Commission does not have policies and procedures in place for identifying and recording
leasehold improvements and tenant improvement allowances. During FY 2013, the Commission
recorded the appropriate assets and adjustments to cumulative results of operations and posted
a prior period adjustment which required the restatement of the FY 2012 financial statements.

Statement of Federal Financial Accounting Standards Number 6 states in part, “Property, plant
and equipment also include assets acquired through capital leases, including leasehold
improvements.” In addition, according to OMB Circular A-123, Management’s Responsibility for
Internal Control, “management is responsible for establishing internal control to achieve the
objectives of efficient and effective operations, reliable financial reporting, and compliance with
applicable laws and regulations. Management shall consistently apply internal control standards
to meet each of the internal control objectives and to assess internal control effectiveness.”

Recommendations

We recommend that Commission management:

      Improve internal controls over financial reporting and property, plant, and equipment.
      Review new lease agreements and record tenant improvement allowances at the time
       the agreement is signed.
      Develop comprehensive policies and procedures over accounting and reporting for
       leases, including tenant improvement allowances, to be consistent with the existing
       generally accepted accounting guidance related to leases. A checklist for leases should
       be developed and required to be prepared and maintained for all leases, including
       equipment leases and GSA subleases. If GSA prepares such a lease analysis, a copy
       should be obtained, reviewed, and retained by the Commission to ensure proper
       accounting and reporting.
                                        EXHIBIT B
                                    Compliance Findings

                          Non-compliance with Anti-Deficiency Act

The Anti-Deficiency Act (ADA) prohibits making or authorizing an expenditure from, or creating
or authorizing an obligation under any appropriation or fund in excess of the amount available in
the appropriation or fund unless authorized by law.

In FY 2012, the Commission exceeded an appropriation limit on Reception and Representation
expenses. The limit placed within the appropriation for FY 2012 was $4,000 and the
Commission exceeded that limit by $7,556. This violation occurred when an office within the
Commission incurred expenses in excess of the statutory limit when refreshments and gifts for
foreign dignitaries were purchased during conferences hosted by the Commission and the
proper funds approval process was not followed. In addition, the Commission was relying on a
GAO decision that would have permitted the use of appropriated funds to purchase
refreshments; however, as part of the investigation into the potential violation, the Commission
became aware of an opinion by the U.S. Department of Justice’s Office of Legal Counsel (OLC)
which interprets the law as prohibiting the use of appropriated funds to purchase refreshments.
After consultation with OMB, the Commission determined that they should follow the OLC
opinion. The Commission provided the required notification of the violation of the ADA to the
Speaker of the House of Representatives, the Comptroller General of the United States, the
President of United States Senate and the President of the United States on November 19,
2013.

We also became aware of a second potential violation related to section 620 of Public Law 104-
52 which authorizes federal agencies to use appropriated funds to install telephone lines and
necessary equipment and to pay monthly charges in any residence of an employee authorized
to work at home, provided that the agency certifies that adequate safeguards against private
misuse exist and that the service is necessary for direct support of the agency’s mission. In FY
2013 the Commission’s Office of Inspector General disclosed in an investigative report that
subsequent to FY 1996 employees working under telework status received reimbursement for
telecommunication services without the proper certification of adequate safeguards against
private misuse and without proper safeguards against private misuse. This has created a per se
violation of the Purpose Act and a potential violation of the ADA. However, the Commission has
not yet finalized its position regarding the ADA due to the existence of conflicting opinions from
the DOJ’s Office of Legal Counsel and the Comptroller General of GAO as to whether the
situation would qualify as a violation of the ADA.
                                       EXHIBIT C
                              Status of Prior Year Findings

Our assessment of the current status of the recommendations related to findings identified in
the prior year audit is presented below:

                                                                                 FY 2013
                      FY 2012 Finding                              Type
                                                                                  Status
Overstatement of Cumulative Results of Operations for FY Material              Resolved in
2011                                                     Weakness              2013

Omission of FECA Actuarial Liability for FY 2011              Material         Resolved in
                                                              Weakness         2013


Significant Deficiency over Accounts Payable and Budget Significant            Substantially
Monitoring (comprised of the control deficiencies summarized Deficiency        resolved, and
below)                                                                         remaining
                                                                               items
           Oversight over payments processed by service
                                                                               downgraded
            provider
                                                                               to
        Deficiencies over manual travel authorizations and                    Management
            payments                                                           Letter
        Errors found in GovTrip application travel payments                   matters
            and GovTrip interface follow-up and review
        Lack of centrally billed travel account oversight
        Proper accrual of invoices at year-end
        Non-performance of budgetary allowance holder
            reconciliations and follow-up
        Allowance plan notice and reconciliation
Anti-Deficiency Act Violation                                Compliance        Repeat as a
                                                             Finding           Compliance
                                                                               Finding and
                                                                               included in
                                                                               Exhibit B
Noncompliance with Prompt Payment Final Rule                  Compliance       Resolved in
                                                              Finding          2013
Noncompliance with Debt Collection Improvement Act            Compliance       Resolved in
                                                              Finding          2013
           EXHIBIT D
Management’s Response to Findings
